TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                          Coordination and Procedures for
                           Foreclosures Can Be Improved



                                      September 21, 2010

                              Reference Number: 2010-30-119




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   HIGHLIGHTS


COORDINATION AND PROCEDURES                            always have adequate sale information to
FOR FORECLOSURES CAN BE                                consider potential redemption of the property
IMPROVED                                               after a foreclosure sale.
                                                       Unlike judicial foreclosures, the Advisory is the
                                                       control point for non-judicial foreclosure cases.
Highlights                                             The information the IRS provides to the public
                                                       for submitting a timely notice of sale to the
Final Report issued on September 21,                   Advisory is not consistent with the Internal
2010                                                   Revenue Code. Specifically, the Advisory uses
                                                       the postmark date to determine if the notice is
Highlights of Reference Number: 2010-30-119            timely. However, information provided to the
to the Internal Revenue Service Deputy                 public states timeliness is established by the
Commissioner for Services and Enforcement.             receipt date. In addition, the Advisory did not
                                                       always properly screen the notice of sale or
IMPACT ON TAXPAYERS                                    provide sufficient documentation to support why
When property has a Federal Tax Lien attached,         the notices were rejected. Finally, the Advisory
the Internal Revenue Service (IRS) may                 was not consistent when making a determination
participate in the collection of any proceeds from     for requests to release the right of redemption.
foreclosure sales. The IRS was inconsistent in         WHAT TIGTA RECOMMENDED
how it processed foreclosure cases and
coordinated with local United States Attorneys'        TIGTA recommended that the Director,
Offices (USAO). If the IRS does not properly           Collection, Small Business/Self-Employed
work these cases, taxpayers may miss an                Division, ensure: 1) the Advisory provides timely
opportunity to reduce the amount of taxes owed         information regarding the application of any
because any funds collected are applied to the         surplus proceeds and timely recommendations
taxpayer’s Federal Tax Lien balance.
                                                       regarding the value of any releases of rights of
WHY TIGTA DID THE AUDIT                                redemptions; 2) the Advisory has sufficient
                                                       information to consider potential redemption of
Because of the increase in home mortgage               foreclosed properties; 3) communications with
foreclosures, this audit was initiated to
                                                       the public are consistent with the tax law;
determine whether the IRS Advisory Unit
(Advisory) is effectively and efficiently protecting   4) foreclosure files include evidence supporting
the Federal Government’s interest during               rejection of notices of sale; and 5) releases of
foreclosure proceedings when there is a Notice         the rights of redemption are timely and
of Federal Tax Lien filed.                             appropriate.
WHAT TIGTA FOUND                                       In their response to the report, IRS officials
                                                       agreed with all of our recommendations and
The USAO is the control point for judicial             plan to take corrective actions.
foreclosure proceedings. The Advisory acts in a
supporting role by providing necessary
information to the USAO to protect the Federal
Government’s interest. Although the Advisory
does not have jurisdiction for judicial
foreclosures, coordination between the two
offices needs to be improved in some areas.
The Advisory did not always follow up to verify
whether the USAO was properly and timely filing
a claim to collect potential surplus proceeds or
to determine if the Advisory’s recommendations
for releasing the right of redemption were being
followed. In addition, the Advisory did not
                                           DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 21, 2010


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Coordination and Procedures for Foreclosures
                             Can Be Improved (Audit # 200930013)

 This report presents the results of our review to determine whether the IRS Advisory Unit is
 effectively and efficiently protecting the Federal Government’s interest during foreclosure
 proceedings when there is a Notice of Federal Tax Lien filed. This review is included in our
 Fiscal Year 2010 Annual Audit Plan and addresses the major management challenge of
 Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
 Operations), at (202) 622-8510.
                                                   Coordination and Procedures for
                                                    Foreclosures Can Be Improved




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          The Internal Revenue Service Does Not Have Jurisdiction
          for Judicial Foreclosures, but Coordination With the
          United States Attorneys' Offices Can Be Improved .................................... Page 5
                    Recommendations 1 and 2: .............................................. Page 7

          Processing of Non-Judicial Foreclosures Was Not Always
          Consistent or Appropriate ............................................................................. Page 8
                    Recommendations 3 and 4: .............................................. Page 11

                    Recommendation 5: .................................................................. Page 12


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 13
          Appendix II – Major Contributors to This Report ........................................ Page 16
          Appendix III – Report Distribution List ....................................................... Page 17
          Appendix IV – Glossary of Terms ................................................................ Page 18
          Appendix V – Management’s Response to the Draft Report ....................... Page 21
               Coordination and Procedures for
                Foreclosures Can Be Improved




               Abbreviations

CY       Calendar Year
FTL      Federal Tax Lien
I.R.C.   Internal Revenue Code
IRS      Internal Revenue Service
NFTL     Notice of Federal Tax Lien
USAO     Unites States Attorney’s Office
                                          Coordination and Procedures for
                                           Foreclosures Can Be Improved




                                             Background

The Internal Revenue Service (IRS) has the authority to attach a claim to a taxpayer’s assets
when the taxpayer neglects or refuses to pay his or her unpaid taxes.1 This claim is referred to as
a Federal Tax Lien (FTL)2 and attaches to different types of property. The IRS files a Notice of
Federal Tax Lien (NFTL) (Form 668(Y)), in appropriate local government offices, which notifies
interested parties that a lien exists and establishes the IRS’ priority among secured creditors for
the taxpayers’ equity.
Real property with an NFTL attached can also be subject to foreclosure. A mortgage foreclosure
happens when a mortgage holder, typically a bank, compels the sale of a property because of
nonpayment of the mortgage debt. Home
mortgage foreclosures have risen dramatically
                                                                Home mortgage
across the Nation in recent years due to increased             foreclosures have
subprime mortgage lending3 and interest rate                reached record levels.
changes on adjustable rate mortgages. Despite
recent legislative action and increased levels of
loan modification activity, foreclosure activity continues to increase to record levels.
RealtyTrac®, an online marketplace for foreclosure properties, showed 3,957,643 foreclosure
filings were reported on 2,824,674 United States properties in Calendar Year (CY) 2009.
Foreclosure filings include default notices, scheduled foreclosure auctions, and bank
repossessions. These filings represent a 21 percent increase in total property foreclosures from
CY 2008 and a 120 percent increase from CY 2007. Figure 1 shows that in CY 2009, 1 in
45 (2.22 percent) housing units received at least 1 filing during the year, which is a dramatic rise
from 0.58 percent in CY 2006.




1
  Internal Revenue Code (I.R.C.) Section 6321 (1994).
2
  See Appendix IV for a glossary of terms.
3
  The subprime market generally serves borrowers with blemished credit and features higher interest rates and fees
than the prime market.
                                                                                                            Page 1
                                            Coordination and Procedures for
                                             Foreclosures Can Be Improved



             Figure 1: Percentage of United States Housing Units Receiving
             at Least One Foreclosure Filing During CYs 2006 through 2009

                               2.50%


                               2.00%


                               1.50%
               Percentage of
               Housing Units                                                                  2.22
                               1.00%
                                                                              1.84


                               0.50%                          1.03
                                              0.58

                               0.00%
                                             2006            2007            2008            2009
                                                                Calendar Year


               Source: RealtyTrac® Press Release (dated January 14, 2010).

Each State handles real estate foreclosures differently, as foreclosure proceedings are dependent
upon local law. There are two types of foreclosures: judicial and non-judicial.4
    •    Judicial foreclosures occur in States where the sale or disposition is compelled by the
         authority of the court, beginning with the lender filing a complaint and recording a
         Notice of Lis Pendens (meaning “action pending”). Once the court declares a
         foreclosure, the property will then be auctioned to the highest bidder.
    •    Non-judicial foreclosures occur in States where the sale or disposition can be made
         without a court proceeding. Generally, to begin the foreclosure process, the mortgage
         company sends a notice of default or a notice of sale to the homeowner and files a
         recording in the county recorder’s office. Most States have a requisite time period that
         must pass before the foreclosure sale can take place. After this time period lapses, a
         public foreclosure auction is held and the property is sold to the highest bidder.
In judicial foreclosure States, the United States Attorney’s Office (USAO) is the control point for
protecting the Federal Government’s interest in the foreclosure proceedings, and the IRS’
Advisory Units (Advisory) act in a supporting role. In non-judicial foreclosure States, the

4
 States are not entirely judicial or non-judicial. Some states have both types, and the style of foreclosure is
dependent on the type of creditor claim.
                                                                                                                  Page 2
                                          Coordination and Procedures for
                                           Foreclosures Can Be Improved



Advisory is the central control point for protecting the Federal Government’s interest in the
foreclosure proceedings. The Advisory is part of the IRS’ Collection function within the
Small Business/Self-Employed Division.
When a property subject to an FTL is sold in a foreclosure auction, the Federal Government has
certain rights it may exercise. Specifically, the Federal Government may collect from the surplus
proceeds, exercise its right of redemption, or choose to release the right of redemption as
follows:
    •    Surplus proceeds occur when a foreclosed property is sold for an amount more than
         sufficient to satisfy the mortgage or other liens that were filed prior to those of the IRS
         (known as senior liens). If surplus proceeds exist, the Federal Government has a right to
         collect these funds to apply them to the FTL balance.
    •    Exercising the right of redemption is the process by which the Advisory may purchase
         the property from the party who bought the property at the foreclosure sale.5 The purpose
         for redeeming a foreclosure property is to allow the Federal Government an opportunity
         to resell the property at a higher amount, thereby resulting in greater surplus proceeds to
         apply to the FTL balance. The redemption time period is 120 days from the date of the
         foreclosure sale, although certain States grant a longer redemption period.
    •    The Federal Government may also release its right of redemption. The release of the
         right of redemption process generally begins with a request from the purchaser. The
         Advisory then determines whether the release has value by considering if there is equity
         in the property. For example, there may be cases with equity that is insufficient to cover
         the expenses associated with redeeming and reselling the property, but the release of the
         right of redemption would still have value to the purchaser, such as an investor. If the
         Advisory determines there is no value, it will issue a certificate to the purchaser advising
         that the Federal Government will not exercise its right of redemption. If the right of
         redemption is released for value, the Advisory collects the funds, applies them to the FTL
         balance, and then issues the certificate to the purchaser.
    The record number of mortgage foreclosures has caused a significant increase in the number
    of foreclosure case receipts. Figure 2 shows that from Fiscal Years 2008 to 2009, the
    Advisory experienced a 7 percent increase in judicial foreclosure receipts and a 63 percent
    increase in non-judicial foreclosure receipts. During this time period, the Advisory
    experienced a 44 percent increase in its overall foreclosure inventory.




5
 The right to redeem property is provided by Section 2410(c) of Title 28 of the United States Code for judicial
foreclosures and Section 7425(d) of the I.R.C. for non-judicial foreclosures.
                                                                                                            Page 3
                                            Coordination and Procedures for
                                             Foreclosures Can Be Improved



                  Figure 2: Inventory of Judicial/Non-Judicial Foreclosure Cases

                                            Receipts        Receipts
                         Category          Fiscal Year     Fiscal Year     Increase/(Decrease)
                                              2008            2009
                     Redemptions               607              566             (7 percent)
                     Releases                  346              540             56 percent
                     Judicial                9,632           10,308              7 percent
                     Non-judicial           20,290           33,116             63 percent
                         Total             30,875         44,530              44 percent
                    Source: Fiscal Years 2008 and 2009 Collection Activity Reports.

The Foreclosure Program is one of various programs within the Advisory. Other Advisory
programs include discharge and subordination applications, litigation cases, NFTL
non-attachments, withdrawal of NFTS requests, IRS seizures, the Trust Fund Recovery Penalty,
and aspects of the Taxpayer Advocate. Due to its limited amount of resources, Advisory
management has established three levels of priorities to maintain their workload. While the
specifics of these priorities may be rearranged and adjusted as needed after management
approval, cases from judicial and non-judicial foreclosure programs generally are
medium-priority.6 The levels of priorities allow the Advisory to dedicate its resources to work
cases that are higher profile or generate greater internal revenue.
This review was performed at the local Advisory Units within the Small Business/
Self-Employed Division in Laguna Niguel, California; Jacksonville and Plantation, Florida;
Chicago, Illinois; and Oklahoma City, Oklahoma, during the period October 2009 through
May 2010. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




6
    Non-judicial foreclosures with “adequate” notice are “low” priority work.
                                                                                                 Page 4
                                    Coordination and Procedures for
                                     Foreclosures Can Be Improved




                                Results of Review

The Internal Revenue Service Does Not Have Jurisdiction for Judicial
Foreclosures, but Coordination With the United States Attorneys'
Offices Can Be Improved
Judicial foreclosures require the involvement of the local court system. Because the judicial
foreclosure process involves the courts, the USAO is the primary control point for this type of
foreclosure, rather than the IRS Advisory. In a judicial foreclosure, the United States should be
named party to the suit if an NFTL was filed prior to the commencement of the suit. In such a
suit, the USAO acts as a representative for the Federal Government by collecting funds that may
result from the foreclosure suit. Although it does not have jurisdiction, the Advisory provides
the USAO with information that is necessary to protect the Federal Government’s interest, such
as lien information and recommendations on collection actions. We reviewed the coordination
between local Advisory offices and the USAO and identified some areas that could be improved.
Specifically, we identified inconsistencies in how local Advisory offices coordinate information
related to surplus proceeds and redemption rights.

The Advisory did not always follow up with the USAO
The USAO must file a motion to participate in a surplus funds hearing and will need a statement
of the lien balance due for this hearing. Normally, the USAO sends the Advisory the relevant
foreclosure documentation, usually a Summons and Complaint, along with a request for the
statement of lien balance due. When the Advisory receives this request, it should screen the
documents against the NFTL files to determine the outstanding balance on the lien. In cases
where records indicate there is no outstanding liability on the lien, the Advisory will advise the
USAO, who will file a disclaimer on behalf of the United States. In cases where there is an
outstanding liability on the lien, the Advisory will send the appropriate information to the
USAO, usually a Declaration of Balance Due, which will then be used in court to collect the
surplus proceeds.
We judgmentally selected **1** cases with potential surpluses obtained from 2 Advisory locations
to determine if the Federal Government’s interest was protected. Because the Advisory does not
have the jurisdiction to file the claims and collect the surplus proceeds, we determined how
information was shared and coordinated between the Advisory and the USAO. In **1** (30 percent)
of the cases, the Advisory contacted the USAO, verified the exact amount collected from surplus
proceeds, and conducted research to ensure that payment was applied to the taxpayer’s account.
In**1** (20 percent) cases, the Advisory verified there were no surplus proceeds as a result of the
foreclosure sale. However, in**1** (50 percent) cases, no follow up or research was conducted
                                                                                            Page 5
                                           Coordination and Procedures for
                                            Foreclosures Can Be Improved



before the case was closed. Because the Advisory did not follow up with the USAO on cases
with known potential surplus proceeds, the IRS did not know if claims were filed timely or if any
surplus proceeds were collected.
In addition, the purchaser of a foreclosure property may request the Federal Government release
its right of redemption. The authority to release the right of redemption on judicial foreclosure
properties is delegated to the USAO.7 In such cases, the purchaser should submit an Application
for Release of Right of Redemption in Respect of Federal Tax Liens (Form OBD-225) to the
USAO. Upon receipt of Form OBD-225, the USAO should forward the application to the
Advisory. The Advisory will determine if the Federal Government has a right to redeem the
property and will offer a recommendation as to whether or not to release the right of redemption.
The Advisory may also determine if the right of redemption has any value (or a value greater
than any minimum value established by the local USAO) by considering if there is equity in the
property. The Advisory should then return the completed Form OBD-225 with its
recommendation to the USAO. The USAO is then responsible for issuing the certificate to the
purchaser if the release is granted, collecting the money for the release, and applying it to the
outstanding tax lien balance.
Similarly, our review of 20 cases with requests for releasing of the right of redemption showed
the Advisories did not always follow up with the USAO to determine if IRS recommendations
were followed. In 11 (55 percent) of the 20 cases, follow up was not necessary because the
Advisory made no recommendations to the USAO. In 3 (15 percent) cases, the Advisory
followed up to obtain a copy of the response letter submitted to the purchaser from the USAO
and a copy of the release of right of redemption certificate. However, in 6 (30 percent) cases, the
Advisory did not determine if the purchaser was issued a certificate for the release of right of
redemption or if any payments were applied to the taxpayer’s account.
Although there was coordination between the Advisory and the USAO in some cases, the
Internal Revenue Manual does not require the Advisory to conduct followup actions. This
condition allows local Advisories flexibility on how to balance resources with workload and
other priorities, but also creates inconsistencies. If the Advisory does not follow up, the IRS may
not know if information gathered, prepared, and provided to the USAO was useful and protected
the interests of both the IRS and the taxpayers.

The Advisory does not always have sufficient information to properly consider
redemption rights
In addition to collecting surplus proceeds, the Advisory and the USAO may consider redemption
of a property. To do so, the Advisory needs to receive foreclosure sale information from the
USAO. The Advisory can examine the foreclosure sale results and determine if a property has

7
 Authority to release any right of redemption is delegated to the Department of Justice by Section 0.70 of Title 28 of
the Code of Federal Regulations.
                                                                                                              Page 6
                                    Coordination and Procedures for
                                     Foreclosures Can Be Improved



potential for redemption. If the Advisory chooses to redeem a property that was sold in a judicial
foreclosure, it is the Advisory that will execute the redemption process, not the USAO.
In order for the Advisory to make a proper decision about whether to redeem the property, it
must receive from the USAO the Report or Certificate of Sale and any other information relevant
to the sale. However, our review of 10 judicial foreclosure cases with potential surpluses
showed that, in 6 (60 percent) cases, the Advisory received only a request for a balance due
amount from the USAO, and the Report or Certificate of Sale was not provided after the
foreclosure sale. As a result, the Advisory could not make a redemption determination.
We were advised that the USAO and the local Advisory offices had mutually agreed the USAO
would not send the Summons and Complaint and the Report or Certificate of Sale to the
Advisory for every case. In one location, the USAO did not have sufficient staffing to process
the significant number of foreclosures, so information was provided for only those cases that the
USAO believed had redemption potential. In addition, we were advised the Advisory did not
have sufficient staffing to review and respond timely or the space to store the documentation.
When the Advisory does not have adequate information to make a proper determination
about exercising its right of redemption, there is a risk of the taxpayer missing an opportunity to
reduce the amount of taxes owed by collecting additional revenue on the FTL.

Recommendations
The Director, Collection, Small Business/Self-Employed Division, should ensure:
Recommendation 1: When solicited by the USAO, the Advisory provides timely information
regarding the application of any surplus proceeds and timely recommendations regarding the
value of any releases of rights of redemptions.
       Management’s Response: IRS management agreed with this recommendation. A
       Director, Advisory, Insolvency, and Quality yearly memorandum will reinforce the
       Internal Revenue Manual guidance for identifying, entering into the Integrated Collection
       System, and closing cases. It will also address the need for timely responses to the
       USAO regarding recommendations for surplus proceeds or release of rights of
       redemption. In addition, the foreclosure and redemption practices will be submitted for
       consideration as a topic for the next available revenue officer Continuing Professional
       Education training program.
Recommendation 2: The Advisory has sufficient information to consider potential
redemption of foreclosed properties.
       Management’s Response: IRS management agreed with this recommendation and
       will look into the Advisory opening a dialogue with the USAO as appropriate and, as


                                                                                             Page 7
                                           Coordination and Procedures for
                                            Foreclosures Can Be Improved



         resources allow, ensuring receipt of the information needed to consider the
         recommendation.

Processing of Non-Judicial Foreclosures Was Not Always Consistent
or Appropriate
Unlike judicial foreclosures, the Advisory has control over the non-judicial foreclosure cases
when the property has an NFTL attached. Before the foreclosure sale, the settlement attorney or
other entity conducting the sale should submit a timely and adequate notice of sale to the IRS. A
proper notice to the IRS acts to discharge the FTL/NFTL from the property. If a proper notice is
not given to the Advisory, the property may be sold with an FTL still attached.8 Our review
showed the Advisory was not always consistent when processing non-judicial mortgage
foreclosure cases. Specifically, we identified inconsistencies related to:
    •    Information provided to the public for the timeliness of notices of sale.
    •    Evidence supporting the rejection of notices of sale.
    •    Decisions about releasing the rights of redemption.

The criteria that establishes the timeliness of the notice of sale is inconsistent
The Internal Revenue Code (I.R.C.) requires the settlement attorney or other entity conducting
the sale to submit a notice of sale in writing, by registered or certified mail or by personal
service, not less than 25 days prior to the non-judicial foreclosure sale. The notice should be sent
to the local Advisory office where the sale is to be held and must include information such as the
contact information of the person submitting the notice of sale, legal description of the property,
and information from the NFTL. If the notice is not received timely, or if it does not include all
of the required information, the lien will still be attached to the property unless corrective actions
are taken.
IRS management told us the I.R.C. requires that the postmark date be used to determine if the
notice of sale is timely.9 If the postmark date is at least 25 days prior to the sale date, the notice
is considered timely and the Advisory should review the notice for adequacy. However,
information provided to the public states timeliness is established by the receipt date—not the
postmark date. Specifically, Notice of Nonjudicial Sale of Property and Application for Consent
to Sale (Publication 786) states (emphasis added), “The 25-day period commences upon receipt
of an adequate notice of non-judicial sale;”10 and Notice of Inadequacy (Letter 1840)11 states
“…so that we receive it at least 25 days before the sale.”


8
  Section 7425(c) of the I.R.C.
9
  Section 301.7502-1(c)(2) of the I.R.C.
10
   Publication 786 provides instructions for preparing a Notice of Nonjudicial Sale.
                                                                                               Page 8
                                                Coordination and Procedures for
                                                 Foreclosures Can Be Improved



     Without consistent guidance, there is a risk that notices of sale will be improperly rejected or
     improperly accepted as timely. IRS management advised us Publication 786 and Letter 1840
     have not been recently updated and are inaccurate. Management also advised us the Internal
     Revenue Manual is being revised and they will ensure the criteria are consistent with the I.R.C.

     The Advisory is not always providing enough evidence to support the rejection of
     a notice of sale
     When the Advisory receives an adequate notice of sale from a foreclosing party, it needs to be
     properly reviewed to determine if the Federal Government has an interest in the foreclosure
     property. For example, the Advisory determines if the FTL on the property is still valid12 and if
     the foreclosed property owner is the same taxpayer responsible for the FTL. If the Advisory
     determines the Federal Government does not have an interest in the foreclosure case, it will file
     the notice and take no further action on the foreclosure case. These cases are referred to as
     rejected cases.
     We reviewed a judgmental sample of **1** non-judicial rejected notices of sale obtained from
     2 Advisory locations to determine if the notices were rejected for proper reasons. Our review
     showed:
         •   In**1** (76 percent) cases, the Advisory screened the notices of sale and provided sufficient
             support for these decisions. For example, the notices had “FTL has expired” written at
             the top of the page, which supported why the Federal Government had no interest in the
             property and the basis for rejection.
         •   In**1** (17 percent) cases, there was insufficient documentation to support why the notice
             had been rejected. We contacted the Advisory office that had processed these notices and
             were advised that further research had been conducted using external sources to justify
             why the case was rejected (for example, county property records). However, without the
             documentation from the external research, we could not verify why these cases were
             rejected.
         • In**1** (7 percent) cases, there was insufficient justification to reject the case. For example,
         ***************************1************************************************.
Although we ultimately agreed with the Advisory decisions for the**1** (17 percent) cases with
insufficient documentation, we believe it is important that the cases include an explanation for
rejection. It was necessary to perform additional research to identify why these cases were

11
   This letter lists any problems with the Notice of Sale and allows the foreclosing entity an opportunity to resubmit
the notice.
12
   For example, the FTL would no longer be valid if the FTL liability has been paid in full or it has reached its
collection statute expiration date.


                                                                                                                   Page 9
                                    Coordination and Procedures for
                                     Foreclosures Can Be Improved



rejected, so it is unclear how management ensured Advisory employees were making the correct
decision. We did identify ***1***cases that were rejected improperly, which supports the need for
sufficient evidence in the file. Management needs evidence to be available to provide proper
oversight.
IRS management advised us that non-judicial foreclosure work is sometimes set aside due to
insufficient staffing and to ensure other high-priority work is completed timely. However,
because employees had already taken the time to work the cases, it is important that the file
contain the evidence that the research was completed properly so management can ensure the
correct decisions were made. When the notices of sale are not properly screened or are
incorrectly rejected, the IRS risks losing opportunities for collecting potential revenue, and the
taxpayer may lose an opportunity to reduce his or her tax liability.

The Advisory offices are not consistently making a determination when
processing release of the right of redemption requests
When a party buys a property with an FTL at a non-judicial foreclosure sale, they may request
the IRS release its right of redemption. For example, the purchaser may wish to occupy the
property within the 120-day period without fear of losing it to redemption. Similarly, a
purchaser who is an investor might want to resell the property to a third party within the 120-day
period without the right of redemption attached.
Most actions involved in releasing the right of redemption are taken by the Advisory. The
Advisory should determine if the foreclosed property meets any local criteria for redemption,
such as equity in the property. If the Advisory determines that it is not in the Federal
Government’s interest to exercise its redemption right, it may recommend the release of the
Federal Government’s right for redemption.
The Advisory will also determine if the release has any value. The value is determined by
factoring in any equity amount on the foreclosed property after the sale. If there is no equity, the
release may have no value. Any payment secured for the release of the right of redemption
should be applied to the taxpayer’s outstanding liability. From 2 Advisory locations, we
reviewed a judgmental sample of 20 cases involving a request for release of the right of
redemption to determine if the Advisory was making the proper determinations. Our review
showed:
   •   Inconsistent determination of the value for the release. For example,****1***********
       ***********************************************************************
       ****************************************.
   •   Untimely processing of release requests caused the redemption period to expire before a
       determination could be made in three cases.



                                                                                            Page 10
                                    Coordination and Procedures for
                                     Foreclosures Can Be Improved



   •   Varying degrees of communication between the Advisory and the purchaser. For
       example, ***************************1**********************************
       *********************************************************************
       **********.
The Internal Revenue Manual does not provide specific guidance regarding value or equity
determination when considering a request for the release of the right of redemption. With this
flexibility in the process, it creates an opportunity for inconsistent taxpayer treatment. This
flexibility also made it difficult to assess whether the Advisory made appropriate decisions for
the value for the releases.
IRS management advised us that it is not feasible to implement standard procedures that
determine the value of the release at a national level. Geographic location has an impact in
determining property values and foreclosure trends, including the release value. In addition, the
Advisory has limited resources and its strategy is to put its efforts into the programs that have a
greater potential for return. This focus may result in different priorities in different Advisory
locations, which may create inconsistencies in how cases are being worked.
In addition, IRS management believes if the need was urgent, the purchaser would follow up
with the Advisory, and then the Advisory would be responsive. As a result, the burden is on the
purchaser to obtain the release timely.

Recommendations
The Director, Collection, Small Business/Self-Employed Division, should ensure:
Recommendation 3: IRS communications with the public are consistent with the I.R.C. and
Internal Revenue Manual. Specifically, Letter 1840 and Publication 786 should be consistent
with the I.R.C. and Internal Revenue Manual regarding timeliness for a notice of sale.
       Management’s Response: IRS management agreed with this recommendation and is
       addressing this change. The IRS is currently revising Letter 1840 and will include
       Publication 786 and other foreclosure and redemption products in this revision process.
Recommendation 4: Foreclosure files include evidence supporting why notices of sale were
rejected.
       Management’s Response: IRS management agreed with this recommendation. The
       Director, Advisory, Insolvency, and Quality yearly memorandum establishing work
       priorities will reinforce the Internal Revenue Manual guidance for identifying, entering
       into the Integrated Collection System, and closing cases, including the need for
       appropriate history notations when closing or rejecting cases.



                                                                                            Page 11
                                 Coordination and Procedures for
                                  Foreclosures Can Be Improved



Recommendation 5: Releases of the rights of redemption are timely and appropriate.
      Management’s Response: IRS management agreed with this recommendation. The
      Director, Advisory, Insolvency, and Quality yearly memorandum establishing work
      priorities will reinforce the Internal Revenue Manual guidance for identifying, entering
      into the Integrated Collection System, and closing cases, including the need for timely
      release of rights of redemption when appropriate, along with a history notation on how or
      why rights of redemption were or were not pursued.




                                                                                       Page 12
                                               Coordination and Procedures for
                                                Foreclosures Can Be Improved



                                                                                       Appendix I

            Detailed Objective, Scope, and Methodology

Our overall audit objective was to determine whether the Small Business/Self-Employed
Division’s Collection function effectively and efficiently protects the Federal Government’s
interest during foreclosure1 proceedings when there is an NFTL filed. To accomplish this
objective, we:
I.         Identified the IRS’ procedures and guidelines when a property subject to an NFTL is
           going through foreclosure proceedings.
           A. Reviewed the Internal Revenue Manual guidelines, Law Enforcement Manual
              guidelines, and Integrated Data Retrieval System queries. We interviewed the
              Advisory office to identify its role and involvement during foreclosures. We also
              reviewed all types of cases for both judicial and non-judicial foreclosures including:
              surplus proceeds, rejected cases, redemptions, and release of rights of redemption.
           B. Determined if the process between judicial and non-judicial foreclosure is the same in
              all locations.
           C. Reviewed the overall foreclosure process by sending a questionnaire to
              10 judgmentally selected Advisory locations having the highest number of
              foreclosure cases. We judgmentally selected these 10 locations to ensure a greater
              representation of the foreclosure process per territory offices.
II.        Analyzed the data related to judicial and non-judicial foreclosure actions and identified
           trends and a population from which to select samples. Because local laws affect
           foreclosure proceedings, we selected a judgmental sample of judicial and non-judicial
           foreclosure cases. We used judgmental sampling because the population for each type of
           case was unknown. The locations were selected by identifying the States having
           the highest numbers of foreclosure filing rates.
           A. Obtained previous and current key statistics related to judicial and non-judicial
              foreclosure actions from the Advisory office and identified where the IRS is focusing
              its resources. In addition, we obtained statistics from external sources such as
              RealtyTrac®.
           B. Extracted the inventory of cases assigned to the Advisory office from the Integrated
              Collection System.


1
    See Appendix IV for a glossary of terms.
                                                                                              Page 13
                                   Coordination and Procedures for
                                    Foreclosures Can Be Improved



          1. Obtained the records from the history table on the Integrated Collection System
             open and archive files that were closed between October 1, 2007, and June 30,
             2009.
          2. From the records obtained in Step II.B.1., we identified the redemption, release of
             right of redemption, judicial, and non-judicial foreclosure cases. In addition, we
             identified the location of the Advisory office that worked the case.
          3. Validated the data extracted from the Integrated Collection System by comparing
             the results with various statistics from IRS reports.
       C. Analyzed the Automated Lien System database and identified any information on the
          properties for which an NFTL was filed. In addition, we conducted a comparative
          analysis between records obtained from the Advisory Office and the Automated Lien
          System database.
       D. Evaluated the prior information and identified the locations to use for selecting the
          samples for our case review.
III.   Determined if the Federal Government’s interest is protected during judicial foreclosure.
       A. Determined the work relationship between the USAO and the Advisory office by
          interviewing Advisory office management and a USAO official for corroboration of
          procedures.
       B. Obtained a judgmental sample of judicial foreclosure cases worked in the Advisory
          office to determine if the USAO executed the recommendation obtained from the
          Advisory office, such as filing a claim to collect from surplus proceeds and releasing
          or exercising the rights of redemption. We selected a judgmental sample because we
          were not able to identify the population of cases received in the Advisory offices and
          because there was a limited number of cases available for review. The types and
          numbers of cases reviewed are as follows:
          1. Surplus Proceeds                       ***1** cases
          2. Release Right of Redemption            20 cases
IV.    Determined if proper actions were taken for non-judicial foreclosures by the Advisory
       office to protect the Federal Government’s interest.
       A. We obtained a judgmental sample of non-judicial cases from the inventory of Notices
          of Sale maintained at the Advisory office. We determined the locations and criteria
          for the selection of the sample after we completed Step II. We selected a judgmental
          sample because we were not able to identify the population of cases received in the
          Advisory offices and because there was a limited number of cases available for
          review. The types and numbers of cases reviewed are as follows:

                                                                                          Page 14
                                   Coordination and Procedures for
                                    Foreclosures Can Be Improved



           1. Surplus Proceeds                      20 cases
           2. Release of Right of Redemption        20 cases
           3. Redemption                            10 cases
           4. Rejected Cases                        **1** cases
       B. Determined if the notice of sale was properly reviewed for adequacy and timeliness
          by the Advisory office.
       C. Determined if the Advisory office took appropriate actions and timely followed up to
          secure collection of surplus proceeds from non-judicial foreclosure sales.
       D. For rejected cases, identified the reason and criteria used for rejecting a case and
          determined if correct decision was made. Also, we determined whether there is more
          the IRS could have done in this process to monitor cases once rejected.
       E. Determined if the Advisory office made the correct decision to exercise or release the
          right of redemption of the property sold.
       F. Discussed our conclusions with IRS management.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the policies, procedures, and practices
used by the IRS Advisory unit to manage the mortgage foreclosure program as it relates to
surplus proceeds, redemption, and release of right of redemption. We evaluated these controls
by reviewing applicable manuals and documentation, interviewing management from the
Advisory unit, interviewing attorneys from the USAO, and reviewing a judgmental sample of
judicial and non-judicial mortgage foreclosure case files.




                                                                                         Page 15
                                 Coordination and Procedures for
                                  Foreclosures Can Be Improved



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Director
Phyllis Heald London, Audit Manager
Lynn Wofchuck, Audit Manager
Doris A. Cervantes, Lead Auditor
Frank Maletta, Auditor
Crystal M. Hamling, Audit Evaluator




                                                                                      Page 16
                                 Coordination and Procedures for
                                  Foreclosures Can Be Improved



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                 Page 17
                               Coordination and Procedures for
                                Foreclosures Can Be Improved



                                                                              Appendix IV

                           Glossary of Terms

Term                    Definition
Adjustable Rate         Loan with an interest rate that can vary up or down at certain
Mortgage                intervals (periods) and within certain limits (caps); loan is secured
                        by house on which lender will foreclose if loan is not paid.
Automated Lien System   Used to generate Notices and Releases of Federal Tax Liens, as well
                        as to generate levy documents and letters. The purpose of a tax lien
                        is to put the public on notice that a lien has been placed on a
                        taxpayer’s property. Once the information is released to the State
                        recording offices and the District of Columbia Recorder of Deeds, it
                        is public information and is not of a confidential nature.
Collection Statute      The expiration of the time period established by law to collect taxes.
Expiration Date         It is normally 10 years from the date of the assessment.
Equity                  Determined by comparing the property value to the foreclosure sale
                        price. If the property was sold for less than its value, the Advisory
                        will determine that there is equity in the property and may
                        recommend releasing the right of redemption for a higher value than
                        compared to a property that has no equity.
Federal Tax Lien        The claim that the IRS has the authority to attach to a taxpayer’s
                        assets when the taxpayer neglects or refuses to pay his or her unpaid
                        tax.
Foreclosure             The process that allows a lender to recover the amount owed on a
                        defaulted loan by selling or taking ownership (repossession) of the
                        property securing the loan. State law generally governs
                        foreclosures, and rules may vary between States.
Housing Unit            A house, apartment, mobile home, group of rooms, or single room
                        that is occupied (or if vacant, is intended for occupancy) as separate
                        living quarters.




                                                                                       Page 18
                                  Coordination and Procedures for
                                   Foreclosures Can Be Improved




Term                       Definition
Integrated Collection      An information management system designed to improve revenue
System                     collections by providing revenue officers access to the most current
                           taxpayer information while in the field, using laptop computers for
                           quicker case resolution and improved customer service.
Internal Revenue Code      Federal tax law begins with the I.R.C., enacted by Congress in
(I.R.C.)                   Title 26 of the United States Code. It is the main body of domestic
                           statutory tax law of the United States organized topically, including
                           laws covering the income tax, payroll taxes, gift taxes, estate taxes,
                           and statutory excise taxes. Its implementing agency is the IRS.
Judicial Foreclosure       Foreclosure action executed by the court.
Mortgage                   A conveyance of an interest in real property, given as security for
                           the payment of a debt. An agreement between two parties:
                           borrower and lender.
Non-Judicial Foreclosure   Foreclosure on a mortgage without filing a lawsuit or obtaining a
                           court order; generally occurs because a borrower has signed a
                           document such as a deed of trust that gives the trustee the right to
                           sell the property to pay off the debt.
Notice of Default          The initial document (non-judicial) filed by a trustee that starts the
                           foreclosure process, usually after the occurrence of a default under
                           the deed of trust or mortgage.
Notice of Federal Tax      Public notification of creditors that the United States Government
Lien                       has a claim against all property, and any rights to property, of a
                           taxpayer who received a Federal Tax Lien. This includes property
                           owned at the time the notice of lien is filed and any property
                           acquired thereafter. This notice is used by courts to establish
                           priority in many situations, including bankruptcy proceedings or
                           sales of real estate.
Notice of Lis Pendens      Notification of pending lawsuit (Lis Pendens). The initial document
                           (judicial) filed by an attorney or trustee that starts the foreclosure
                           process after the occurrence of default under the deed of trust or
                           mortgage.




                                                                                           Page 19
                             Coordination and Procedures for
                              Foreclosures Can Be Improved




Term                  Definition
Notice of Sale        If a homeowner does not make up the mortgage payments, a Notice
                      of Sale will be mailed to the homeowner, posted in public places,
                      recorded at the county recorder’s office, and published in area legal
                      publications. This notice will include the time, place, and date the
                      home will be sold at a foreclosure sale.
Redemption            Allows the IRS to acquire title to real estate by buying the property
                      from the purchaser who acquired title at the foreclosure sale. By
                      redeeming the property, the Government secures the equity and once
                      sold, applies it to the taxpayer’s liabilities.
Release of Right of   The United States may release its right of redemption in exchange
Redemption            for the value of this right. In exchange for the value of this right, the
                      United States will issue a certificate stating that it will not exercise
                      the right of redemption. Certificates of Release of Right of
                      Redemption can be issued in both judicial and non-judicial
                      foreclosures.
Surplus               Upon the completion of the foreclosure, generally the clerk of the
                      court sells the property to satisfy the mortgagee’s judgment. If the
                      sale nets more money than the amount owed to the first mortgagee,
                      this excess is called a “surplus.”




                                                                                       Page 20
             Coordination and Procedures for
              Foreclosures Can Be Improved



                                               Appendix V

Management’s Response to the Draft Report




                                                    Page 21
Coordination and Procedures for
 Foreclosures Can Be Improved




                                  Page 22
Coordination and Procedures for
 Foreclosures Can Be Improved




                                  Page 23
Coordination and Procedures for
 Foreclosures Can Be Improved




                                  Page 24
Coordination and Procedures for
 Foreclosures Can Be Improved




                                  Page 25
